Legal Services Corporation
            Office of
     Inspector General




Semiannual Report to the Congress
 April 1, 2005 – September 30, 2005

           www.oig.lsc.gov
                                                        April 1, 2005 – September 30, 2005



                      TO THE BOARD OF DIRECTORS
               OF THE LEGAL SERVICES CORPORATION (LSC)
                                 AND
                     THE UNITED STATES CONGRESS
               A MESSAGE FROM THE INSPECTOR GENERAL


This is my third report since becoming Inspector General. I am pleased with the
support the Office of Inspector General (OIG) has received from Congress and
others in our effort to be independent-minded and to ensure that taxpayer dollars
deliver maximum results. I am confident that as LSC responds to OIG
recommendations to improve programs and operations, its stakeholders will have
the trust and confidence they need to continue their support.

During this period LSC’s congressional oversight subcommittee held a hearing
regarding the OIG’s report on the Financial Implications of the Lease at 3333 K
Street. In that report, the OIG concluded LSC was leasing headquarters office
space at unfavorable rates from its landlord, an organization established by LSC
officials. Because of the difficulties arising out of the OIG’s lease review, the
Board of Directors subsequently was asked by LSC’s oversight committees in the
House of Representatives to work on improving relations between the Board and
the OIG. Since then, the Board has stated it would address congressional
concerns regarding the lease and its relations with the OIG. By April 2006, when
the next semiannual report is published, I hope to report that progress continues
to be made on both of these issues.

To keep our stakeholders informed, twice a year as required by law, the OIG
submits this report to the Board of Directors, the agency head of LSC, for
transmittal to the Senate and House of Representatives. In addition, throughout
the year we keep Congress and the Board of Directors fully and currently
informed by meeting with them and responding to their inquiries. In my statutory
role as an independent Inspector General, it is my job to ensure that the Board of
Directors and Congress have accurate, complete and timely information that
fairly and objectively describes the condition of LSC programs and operations.

This Semiannual Report sets forth the significant activities and accomplishments
of this office from April 1, 2005 through September 30, 2005. It details our efforts
to oversee the system for routine monitoring of compliance with the restrictions
on the use of LSC funds by grantees. It also reports our efforts to improve the
effectiveness and efficiency of LSC. In this reporting period, the OIG issued four
audit reports. We also opened 10 new investigations and closed eight
investigations with one referral for prosecution.

I will continue to keep the Board of Directors and Congress fully and currently
informed. I appreciate the support and interest expressed by Representatives
Frank Wolf and Chris Cannon as well as members of their staffs. I also would
                                                      April 1, 2005 – September 30, 2005



like to thank Chairman Frank Strickland and the Board of Directors for its
expressed willingness to improve working relations with the OIG, and President
Helaine Barnett and her senior staff for continuing to work cooperatively to
address mutual concerns. In particular, I would like to acknowledge Karen
Sarjeant, Vice President for Programs and Compliance, and Charles Jeffress,
Chief Administrative Officer, who joined LSC during this reporting period and who
have helped the OIG work with LSC management to improve its programs and
operations. Finally, I would like to welcome two new members to the Board of
Directors—Mr. Thomas Fuentes and Ms. Bernice Phillips. I am committed to
working cooperatively and building an effective relationship with the Board,
Congress, LSC management and other LSC stakeholders.

Sincerely,



Kirt West
Inspector General
September 30, 2005
                                                                                 April 1, 2005 – September 30, 2005



                                        TABLE OF CONTENTS


OFFICE OF INSPECTOR GENERAL OVERVIEW............................................... 1

AUDITS................................................................................................................. 4

OTHER REVIEWS................................................................................................ 8

INVESTIGATIONS.............................................................................................. 10

LEGAL REVIEWS............................................................................................... 13

MAPPING PROJECT.......................................................................................... 16

LIST OF AUDIT REPORTS ISSUED .................................................................. 17

TABLE I - Audit Reports Issued with Questioned Costs for
the Period Ending September 30, 2005 .............................................................. 18

TABLE II - Audit Reports Issued with Funds to Be Put to Better Use for
the Period Ending September 30, 2005 .............................................................. 19

TABLE III - Index to Reporting Requirements of the
Inspector General ............................................................................................... 20
                                                        April 1, 2005 – September 30, 2005



           OFFICE OF INSPECTOR GENERAL OVERVIEW

The LSC Office of Inspector General operates under the Inspector General Act of
1978, 5 U.S.C. app. 3. In 1988, Congress amended the IG Act and required LSC
and about 30 other mostly smaller, federally funded entities to establish
independent Offices of Inspector General.

The OIG has two principal missions: to assist management in identifying ways to
promote efficiency and effectiveness in the activities and operations of LSC and
its grantees; and to prevent and detect fraud and abuse. Thus, the OIG assists
management in fostering, and overcoming obstacles to, good program
management and in preventing future problems; and it must identify and report
on current problems.

The OIG's primary tool for achieving these missions is fact-finding through
financial, performance and other types of audits, evaluations and reviews, as well
as investigations into allegations of wrongdoing. Its fact-finding activities enable
the OIG to develop recommendations to LSC and grantee management for
actions or changes that will correct problems, better safeguard the integrity of
funds, and improve procedures or otherwise increase efficiency or effectiveness.
The OIG is also tasked with ensuring the quality of audits of LSC and its grantees
that are conducted by independent public accountants, and with reviewing
proposed and existing regulations and legislation affecting the operations and
activities of LSC and the programs it funds.

In addition to the missions shared by all OIGs, Congress, starting with LSC's
FY96 appropriation, directed that an additional tool for monitoring grantee
compliance with legal requirements is to be the annual grantee audits conducted
by independent public accountants under guidance developed by the OIG, thus
adding participation in monitoring compliance to the role of the OIG. In addition,
Congress specified the OIG’s authority to conduct its own reviews of grantee
compliance.

The OIG is headed by the Inspector General who reports to and is under the
general supervision of the LSC Board of Directors. The IG has broad authority to
manage the OIG, including setting OIG priorities and activities, and to hire OIG
personnel, consultants and experts.

To ensure the objectivity of the IG, the IG Act grants the LSC IG the
independence to determine what reviews are performed; to gain access to all
documents needed for OIG reviews; to publish findings and recommendations
based on OIG reviews; and to report OIG findings and recommendations to the
LSC Board of Directors and to Congress. The IG Act also prohibits LSC from
assigning to its IG any of LSC’s own "program operating responsibilities." This
means that the OIG does not perform functions assigned to LSC by the Legal


                                         1
                                                          April 1, 2005 – September 30, 2005



Services Corporation Act, 42 U.S.C. §2996-2996l, other than those transferred to
the OIG under the IG Act, and those otherwise assigned by Congress, for
example in the FY 1996 Appropriations Act.

The IG must report serious problems to the LSC Board of Directors and must
also report to appropriate law enforcement authorities, when through audit,
investigation or otherwise, the IG has found that there are reasonable grounds to
believe that a crime has occurred. The OIG is not an "arm" of the Congress, as
is the Comptroller General, but is required by law to keep the Congress informed
through semiannual reports and other means. The IG also provides periodic
reports to the Board and management of LSC and occasionally to the Boards of
Directors and management of LSC grantees. Some of these reports will be
specific (e.g., an audit of a particular grantee or an investigation of a theft), while
others will be of more general interest to management.

Although the OIG is not a part of LSC management, it also is not an adversary of
LSC management. To be effective, the OIG works cooperatively with the Board
and management, seeks their input prior to choosing topics for OIG review, and
keeps them informed of OIG activities. Within their different statutory roles, the
OIG and management of LSC share a common commitment to improving the
federal legal services program and increasing the availability of legal services to
the poor.

IDENTIFYING MAJOR MANAGEMENT CHALLENGES

In our last report, we identified that one of our goals for the upcoming reporting
period would be to work with LSC management to identify major challenges and
obstacles faced by LSC. We explained that over the years, most OIGs have
reported these issues to their agency heads and Congress to alert them to the
challenges facing their agencies. Even though the law does not specifically
apply to LSC it is a good business practice for the OIG to inform the Board of
major management challenges.

Since our last report, LSC management is in the process of developing its draft
Strategic Directions 2006-2010 document. Considering this fact and the impact
LSC strategic planning will have on the identification of major management
challenges by the OIG, we are delaying identifying challenges until the Strategic
Directions document is finalized.

STRATEGIC PLANNING AND RISK ASSESSMENT

The OIG is also conducting its own strategic planning process to expand the OIG
planning horizon from 2006 through 2010 and incorporate the Government
Performance and Results Act, the President’s Management Agenda and High
Performing Organization principles. As part of that effort, we held a meeting of
all OIG staff to conduct a risk assessment.



                                          2
                                                         April 1, 2005 – September 30, 2005




The assessment attempted to capture all significant risks to LSC and grantee
programs and activities that expose assets to fraud, waste, abuse and
mismanagement including the potential that operations might not be performed
as economically, efficiently or effectively as possible. We identified risks that are
still valid from prior OIG assessments, as well as new risks, including human
capital, financial management, and several other areas.

The OIG expects to align our plan with LSC’s new strategic plan so our work will
assist the Board, Congress and LSC management in achieving organizational
goals.




                                         3
                                                      April 1, 2005 – September 30, 2005



                                  AUDITS

LANDLORD BUILD OUT ALLOWANCE FOR LSC HEADQUARTERS SPACE

As a result of the OIG’s review of LSC’s lease at 3333 K Street, the OIG
conducted a limited scope review of the accounting of the up to $2 million
landlord tenant improvement allowance LSC was supposed to receive pursuant
to its lease with the Friends of Legal Services Corporation.

The OIG was unable to determine how much of the up to $2 million of build out
funds had been used by LSC because LSC did not have adequate accounting
records and documentation for its leasehold improvement expenses. The OIG
was able to determine that LSC may have paid approximately $200,000 for items
that should have been paid for with the leasehold improvement funds. Also,
records indicated that almost $400,000 charged by the landlord to LSC’s
allowance of up to $2 million may not have been LSC leasehold improvements.

The OIG recommended that LSC obtain from the landlord a full and detailed
accounting of all costs associated with the leasehold improvements, conduct a
detailed analysis of the accounting, and recoup from the landlord any payments
made by LSC that should have been paid using the leasehold improvement
allowance. At the end of the reporting period, LSC outlined the actions taken to
close out OIG recommendations, and the OIG will evaluate the proposed actions
to determine if they are sufficient to close out the recommendations.

LSC’S HEADQUARTERS OFFICE SPACE NEEDS

The OIG found that because a space needs assessment was not performed
before entering into a 10-year lease, LSC did not know how much space was
needed to accomplish its mission. Therefore, LSC may be renting significantly
more space than is needed. Using the General Services Administration (GSA)
guidelines for a typical government organization, LSC may be overpaying for its
space needs by as much as $7 million over LSC’s 10-year lease. However, until
a space study has been completed to determine actual space needs, the actual
amount of overpayment, if any, can not be determined.

Our report recommended that LSC management commission a space needs
study to be conducted in a manner similar to that contained in the GSA
guidelines. Should the space needs study indicate that LSC has excess space,
LSC should sublease the space in a manner that reduces LSC’s overall rent
costs. Although LSC management disagreed with our analysis, they generally
agreed to implement the recommendations. During the course of our audit, LSC
took a positive step by subleasing 2,139 square feet of space on the first floor.
The OIG will continue to track these significant recommendations until resolved.




                                       4
                                                         April 1, 2005 – September 30, 2005



AUDIT SERVICE REVIEWS (ASRs)

The OIG is responsible for the oversight of the Independent Public Accountants
(IPAs) who are selected by the grantees to perform annual audits, which among
other things report whether the grantees comply with LSC regulations. To fulfill
this oversight responsibility, the OIG conducts ASRs which are reviews of the
audit documentation of selected IPAs to determine whether they adequately
tested the grantee’s compliance with LSC regulations.

The OIG is currently conducting a series of 14 ASRs in 2005 using OIG staff
instead of contractors. Our work to date has indicated that many more ASRs
need to be performed on an annual basis by the OIG in order to ensure that IPA
work is meeting Congressional requirements and serving LSC and grantee
needs. In addition to ensuring that the compliance work of the grantees’ IPAs is
complete and meets standards, we are assessing the entire review process and
the Compliance Supplement guidance provided by the OIG for use by the IPAs.
Based on this assessment, we will make necessary changes to the overall
program in order to provide greater assurance of grantee compliance. Field work
for 10 of the 14 reviews was completed during this reporting period. The
remaining four visits are scheduled for early next quarter. Reports on the results
of the 14 ASRs and modifications to the Compliance Supplement will be issued
next period.

FY 2004 LSC CORPORATE AUDIT

The OIG transmitted the FY 2004 Financial Statement Audit Report to the LSC
Board of Directors. The audit was conducted by an independent certified public
accounting firm and was performed in accordance with generally accepted
auditing standards, as well as the standards applicable to financial audits
contained in the Government Auditing Standards issued by the Comptroller
General of the Unites States.

The Independent Auditor’s Report stated that LSC’s financial statements present
fairly, in all material respects, the financial position of LSC as of September 30,
2004 and September 30, 2003 and the results of its operations and changes in
its fund balance for the years then ended, were in conformity with generally
accepted accounting principles.           The Independent Auditor’s Report on
Compliance and Internal Control disclosed no instances of noncompliance that
are required to be reported under Government Auditing Standards. This Report
also noted no matters involving the internal control over financial reporting and its
operation that were considered to be material weaknesses.

The OIG reviewed the Independent Auditor’s Report and related audit
documentation and inquired of their representatives. Our review disclosed no
instances in which the Independent Auditor’s Report did not comply, in all
material respects, with generally accepted government auditing standards.



                                         5
                                                   April 1, 2005 – September 30, 2005




LSC OIG PEER REVIEW OF EEOC OIG

In accordance with the same standards and guidelines mentioned above, the
LSC OIG conducted a peer review of the Equal Employment Opportunity
Commission’s OIG. LSC OIG auditors reviewed a sample of EEOC OIG reports,
issued a draft report for comment by EEOC OIG management, and issued a final
peer review report during this reporting period.




                                     6
                                                April 1, 2005 – September 30, 2005



Audit Reports


     Open at beginning of reporting period                                      2


     Issued during reporting period                                             4


     Closed during reporting period                                             3


     Open at end of reporting period                                            3


Recommendations to LSC Grantees


     Pending at beginning of reporting period                                   0


     Issued during reporting period                                             0


     Closed during reporting period                                             0


     Pending at end of reporting period                                         0


Recommendations to LSC Management


     Pending at beginning of reporting period                                   0


     Issued during reporting period                                           10


     Closed during reporting period                                             0


     Pending at end of reporting period                                       10




                                       7
                                                       April 1, 2005 – September 30, 2005



                              OTHER REVIEWS


FINANCIAL IMPLICATIONS OF LSC’S HEADQUARTERS LEASE

After hearing concerns from Congress and OIG staff as well as members of LSC
management, the OIG conducted a review of the financial implications of the
3333 K Street lease for LSC headquarters that was entered into in 2002 for a 10-
year period beginning in June 2003. Two independent appraisals assessed the
lease as well as information on other costs related to the lease at, and the move
to 3333 K Street from LSC’s previous location. The purpose of the report was to
provide information to assist the LSC Board in determining any future actions
regarding LSC’s headquarters lease.

Based on the two appraisals, the OIG calculated LSC will overpay between
$1.23 million and $1.89 million in rent over a 10-year period as a result of paying
above market rent. Based on information provided by the appraisers, the OIG
also calculated that LSC could have saved at least $680,000 over this 10-year
period by remaining in its existing space. Also, LSC would not have incurred
$440,000 in costs associated with the move. In addition, the OIG calculated that
LSC may be due a rent credit because it was charged for 45,000 square feet
when it only occupied 42,852 square feet from June 2003 until late 2004. The
LSC Board by unanimous vote has twice disagreed with OIG’s report on the
lease.

SAFETY AND SECURITY REVIEW

The OIG is currently working on a Safety and Security Review of LSC
headquarters. As part of this review, three safety concerns were identified and
forwarded to LSC management for corrective action. Two of the three concerns
were corrected by the landlord at LSC’s request. The third issue is pending
corrective action.

AMTRAK PEER REVIEW OF LSC OIG

Amtrak’s OIG conducted a peer review of the OIG. Amtrak OIG conducted the
review in accordance with standards and guidelines established by the
President’s Council on Integrity and Efficiency (PCIE). The peer review tested
compliance with the OIG’s system of quality control and included a review of OIG
audits.




                                        8
                                                       April 1, 2005 – September 30, 2005



In the Amtrak OIG’s opinion, the system of quality control in effect for the period
covered, October 1, 2003, through September 30, 2004, was designed in
accordance with the quality standards established by the PCIE and was being
complied with for that year and provided the OIG with reasonable assurance of
material compliance with professional auditing standards in the conduct of its
audits. Based on the peer review, the Amtrak OIG issued the OIG an unqualified
opinion on our system of audit quality control.




                                        9
                                                         April 1, 2005 – September 30, 2005



                               INVESTIGATIONS

The OIG opened ten investigations during the reporting period. There are six
cases that involve theft of funds or property; three embezzlement cases; and one
investigative project to review grantee financial risk.

During this period, the OIG opened a loss prevention initiative to review financial
vulnerability of LSC grantee operations. Based on information gained from the
Hotline, the Independent Public Accountant financial reports, and other sources
of referrals, the OIG will conduct a limited field review to ensure adequate
safeguards and internal controls are in place to prevent criminal activities.

There were six cases that pertain to theft of funds or property from LSC grantee
locations. The OIG opened and closed five of these investigations. One
investigation is pending criminal prosecution. On this case it was determined
that a building cleaning service employee provided access to the perpetrator who
stole cash left by a client for deposit in the client trust funds. The perpetrator was
arrested by local authorities and is awaiting trial.

During this reporting period, on a previously reported embezzlement
investigation, two local jurisdiction search warrants and a warrant for the
subject’s arrest were issued. The subject fled to another state where an arrest
was made pursuant to the warrant. The subject is now awaiting trial.

Operationally, OIG investigations issued and served four Inspector General (IG)
subpoenas in conjunction with an embezzlement investigation.

During this period, the OIG hired a new investigator. To better acclimate the new
investigator into the Inspector General environment, the investigator attended
two training courses at the Inspector General’s Academy

The OIG maintains a Hotline for reporting illegal or improper activities by LSC
grantees or corporate staff. For this reporting period, the OIG received 14
Hotline contacts. Six were referred to LSC for follow-up. The OIG Hotline also
received two calls from victims of Hurricane Katrina, which affected phone
service and closed local LSC-funded legal aid offices. Shortly after Katrina
struck, OIG investigators, who monitor the Hotline, were able to provide the
callers with information directing them to available legal services.

FRAUD ALERT DISTRIBUTED TO GRANTEES

During this reporting period the Inspector General issued a fraud alert to all
grantee Executive Directors on measures to detect and prevent losses from
internal thefts. The guidance, which included concrete steps, was issued after
receiving feedback from LSC grantees and with the realization that the median


                                         10
                                                        April 1, 2005 – September 30, 2005



loss due to fraud for not-for-profit organizations is as great as for public
companies, and that consequently small, not-for-profit organizations like LSC
grantees risk suffering disproportionately large losses if fraud goes undetected.
We have received positive responses on the guidance and will continue
aggressively investigating allegations of fraud as well as the effective expenditure
of LSC funds.




                                        11
                                              April 1, 2005 – September 30, 2005




Investigative Cases


      Open at beginning of reporting period                  6


      Opened during reporting period                       10


      Closed during reporting period                         8


      Open at end of reporting period                        8


Prosecutorial Activities


      Referred for prosecution                               1


      Accepted for prosecution                               1


      Declined for prosecution                               0


      Arrests                                                1


      Pending                                                1


      Convictions                                            0


Investigative Activities


      Inspector General subpoenas issued                     4




                                        12
                                                         April 1, 2005 – September 30, 2005



                           LEGAL REVIEWS


Pursuant to the IG’s statutory responsibilities, the OIG reviewed and, where
appropriate, commented on statutory and regulatory provisions affecting LSC
and/or the OIG as well as LSC interpretive guidance and its internal policies and
procedures.

REGULATION: 45 CFR PART 1611, FINANCIAL ELIGIBILITY

In our last report, the OIG reported on its written comments to proposed revisions
to LSC’s regulation governing financial eligibility, 45 CFR Part 1611. During the
current period, on April 1, 2005, the Operations and Regulations Committee held
a meeting at which it considered the financial eligibility regulation. The OIG
provided oral comments to the Committee, which while not agreeing with all of
the OIG’s comments, addressed some of them by changes to the regulatory text
and/or the supplemental guidance that accompanied publication of the
regulation.

Group representation:

The OIG commented that the regulation should provide eligibility criteria sufficient
to ensure that groups qualify for LSC funded legal assistance, and should require
grantees to retain adequate documentation of group eligibility. The regulatory
language under consideration at the April meeting set as the standard for group
financial eligibility the requirement that the group “provide[] information showing
that it lacks, and has no practical means of obtaining funds to retain private
counsel,” and then required merely that grantees collect information that
“reasonably demonstrates” that the group meets this criteria. The LSC Act,
however, requires that eligibility be predicated on more than the general inability
to afford an attorney. Thus, in the OIG’s view, LSC must provide eligibility
standards and guidelines for group representation more specific than a general
inability to afford counsel. In addition, the OIG expressed concern that the lack
of specific criteria in combination with the undefined notion of reasonableness
with regard to required documentation of eligibility did not provide guidance to
grantees sufficient to ensure that only financially eligible groups would be
represented.

The Operations and Regulations Committee considered these concerns and
directed that language be added to the regulation to require that grantees review
information concerning a group’s income and assets when making an eligibility
determination. The Committee found that membership groups, that is groups
composed primarily of individuals qualified for LSC funded assistance, could
present a difficult situation because for such groups eligibility is predicated not on
the group’s income and assets but that of the individual members. The
Committee decided not to require a comprehensive eligibility determination of


                                         13
                                                         April 1, 2005 – September 30, 2005



each individual group member, finding this prohibitively burdensome, but
ultimately approved language predicating eligibility on consideration of financial
or other socioeconomic characteristics of group members or those served by the
group.

The OIG expressed concern with the expansion of group representation to permit
not only the representation of groups primarily composed of eligible clients, but
the representation of groups that have as a principal activity the delivery of
services to those who would be financially eligible for LSC funded services. The
OIG found this problematic because in its view, neither the LSC Act itself nor its
legislative history endorse the premise that LSC may permit representation of
groups that are not composed of eligible clients. The Committee disagreed, but
decided to include language in the supplemental guidance to accompany the
regulation intended to make clear that it is not LSC’s intent in expanding group
representation to permit grantees to circumvent the LSC restrictions, including
the restriction on participation in class action cases.

The Committee directed staff to publish the proposed regulation for comment and
after considering public comment, recommended the Board’s adoption of the
regulation. The Board adopted the Committee’s recommendation and the
revised regulation become final on September 7, 2005.

ELIGIBILITY OF TRAFFICKING VICTIMS UNDER THE TRAFFICKING
VICTIMS PROTECTION ACT (TVPA)

The OIG provided written comment to LSC management regarding LSC’s draft
program letter regarding the eligibility of trafficking victims under the Trafficking
Victims Protection Act (TVPA). The program letter authorizes LSC grantees to
provide assistance to persons who have not yet received certification under the
TVPA. Under the program letter, grantees may provide assistance with
achieving certification and may provide the full range of legal services to persons
who have not yet received certification, even though certification is a prerequisite
to receiving benefits such as LSC-funded legal services. As such, in the OIG’s
view, the program letter allows representation of ineligible aliens in violation of
section 504(a)(11) of LSC’s 1996 Appropriations Act. We so advised LSC
management and additionally advised LSC management to consider seeking
specific congressional authorization, especially in light of the pending
reauthorization of the TVPA.

REVISIONS TO ABA STANDARDS FOR PROVIDERS OF CIVIL LEGAL
ASSISTANCE TO THE POOR

The American Bar Association (ABA) has established standards that are
intended to provide guidance to organizations that provide legal assistance to the
poor by addressing issues that arise in the context of the competing demands for
high quality legal work, efficiently produced within available resources. The OIG



                                         14
                                                       April 1, 2005 – September 30, 2005



is particularly interested in the revisions being made by the ABA’s Standing
Committee on Legal Aid and Indigent Defendants (SCLAID) to the Standards for
Providers of Civil Legal Assistance to the Poor. Because LSC has incorporated
these standards into its competition process as one of the selection criteria, the
OIG believes that we should comment on the revisions as part of the OIG’s
statutory responsibility to comment on existing and proposed regulations. The
OIG has been in contact with representatives from SCLAID and advised them
that the OIG intends to comment on the revisions, which are expected to be
finalized at the ABA’s mid-year meeting in early 2006.




                                       15
                                                       April 1, 2005 – September 30, 2005



                            MAPPING PROJECT

As I reported in greater detail in previous semiannual reports, the OIG has been
evaluating the utility of mapping to support the management of legal services
delivery to the LSC eligible population, as part of our mission to promote
efficiency and effectiveness in the activities and operations of LSC and its
grantees. The OIG is in the concluding phase of this evaluation and has begun
to transfer all project assets to LSC management and will issue a summary
report. The OIG will be recommending that LSC increase the availability of
mapping to its grantees and further develop legal services mapping to support
LSC functions.

This project identified, prototyped, and assessed the maps and census poverty
information that are valuable to legal services decision-makers, in both urban and
rural settings in Southern California, Georgia and Montana. The maps visualize
the distribution and changes of the poverty populations over time. They compare
the potential legal services client base to legal services delivered at various
scales to give macro and micro-level views on access to legal services to low-
income individuals from a geographic perspective. The evaluation’s evidence
supports that maps offer a visual model of the legal services environment that
assists in planning, resource and performance management and program
promotion.

The project was structured to allow for further development, replication and
deployment by LSC and/or the LSC grantees. Highlights of the evaluation’s
second phase, which include interim results, resources developed and technical
best practices are posted on the OIG Evaluation of Legal Service Mapping
website at: http://www.oig.lsc.gov/mapping/mapping.htm.

The OIG commissioned an assessment of our project by James W. Meeker J.D.,
Ph.D., of the University of California, Irvine. Dr. Meeker recently completed the
assessment in his paper, Utilizing GIS to Study Legal Needs Issues: an Analysis
of the LSC OIG Southern California Mapping Project. Dr. Meeker introduced his
paper as “an evaluation of an innovative effort by the Office of the Inspector
General (OIG) of the Legal Services Corporation (LSC) to explore the utility of
using Geographic Information Systems (GIS) (“mapping”) to analyze the
distribution of services for five legal service providers in Southern California.…”
Dr. Meeker’s paper points out that the application of GIS to analyze the delivery
of legal services to the poor is a fairly new application; that many in the legal
services community are unaware of both the strengths and weaknesses of this
analytical approach; and that one of the major purposes of this project is to
increase this awareness. The report, which can be found at the Evaluation’s
website, is another part of the process of the OIG concluding this work and
transferring the project to LSC management.




                                        16
                                                                 April 1, 2005 – September 30, 2005




                          AUDIT REPORTS ISSUED
                       for the Period Ending September 30, 2005

     Title                                                       Date Issued
1.   Peer Review of EEOC’s Office of Inspector General’s Audit   April 12, 2005
     Program

2.   FY 2004 LSC Corporate Audit                                 April 20, 2005
     (Conducted by an independent public accounting firm)

3.   Landlord Build Out Allowance for LSC Headquarters Space     June 13, 2005

4.   LSC’s Headquarters Office Space Needs                       September 28, 2005




                                              17
                                                                          April 1, 2005 – September 30, 2005




                                                TABLE I
                             Audit Reports Issued with Questioned Costs
                              for the Period Ending September 30, 2005


        No reports that questioned costs were issued this reporting period.


                                                                NUMBER
                                                                  OF        QUESTIONED      UNSUPPORTED
                                                                REPORTS       COSTS            COSTS

A. For which no management decision has been made by the           0             $0                $0
        commencement of the reporting period.

B. Reports issued during the reporting period                      0             $0                $0

         Subtotals (A + B)                                         0             $0                $0

LESS:

C. For which a management decision was made during the             0             $0                $0
        reporting period:

         (i) dollar value of recommendations that were agreed      0             $0                $0
              to by management

        (ii) dollar value of recommendations that were not         0             $0                $0
              agreed to by management

D. For which no management decision had been made by the           0             $0                $0
        end of the reporting period

E. Reports for which no management decision had been made          0             $0                $0
within six months of issuance




                                                   18
                                                                               April 1, 2005 – September 30, 2005




                                                  TABLE II
                     Audit Reports Issued with Funds to Be Put to Better Use
                            for the Period Ending September 30, 2005



                                                                                  NUMBER OF            DOLLAR
                                                                                   REPORTS             VALUE

 A. For which no management decision has been made by the commencement                  0                 $0
         of the reporting period.


 B. Reports issued during the reporting period                                          2            $5,640,400*


         Subtotals (A + B)
 LESS:

 C. For which a management decision was made during the reporting period:               0                 $0*

         (i) dollar value of recommendations that were agreed to by                     0                 $0
              management
         (ii) dollar value of recommendations that were not agreed to by                0                 $0*
                   management

 D. For which no management decision had been made by the end of the                    2            $5,640,400*
         reporting period


    Reports for which no management decision had been made within six                   0                 $0
    months of issuance


*NOTES

Audit of LSC’s $2 Million Landlord Contribution. The audit found that LSC may have paid $203,240 for some
leasehold improvements from LSC funds rather than charging the improvements against the $2 million landlord
contribution. On September 28, 2005, LSC management provided the OIG with management actions taken and
requested that the significant recommendations be closed. LSC management actions indicated that LSC was
unaware of any payments made by LSC that should have been paid using the leasehold improvement funds. As of
the end of the reporting period, the OIG was evaluating LSC management actions and will keep the significant
recommendations open until the analysis is complete.

Audit of LSC’s Office Space Needs. LSC management generally agreed to implement the recommendations and
will provide the amount of savings, if any, it believes is appropriate when management actions are complete. The
amount of funds put to better use was calculated by multiplying the number of years remaining on the LSC lease
at the time the report was issued (7.67 years) times the potential overpayment per year ($748,000), minus the
amount of income LSC will receive from a 5-year sublease ($300,000). This calculation resulted in an estimate of
$5,437,160 of funds that potentially could be put to better use.




                                                      19
                                                                        April 1, 2005 – September 30, 2005




                                             TABLE III
                               Index to Reporting Requirements
                                   of the Inspector General


     IG ACT
   REFERENCE*                                 REPORTING REQUIREMENT                                 PAGE

Section 4(a)(2)        Review of legislation and regulations                                         13

Section 5(a)(1)        Significant problems, abuses, and deficiencies                               None

Section 5(a)(2)        Recommendations with respect to significant problems, abuses,                None
                       and deficiencies

Section 5(a)(3)        Prior significant recommendations on which corrective action                 None
                       has not been completed

Section 5(a)(4)        Matters referred to prosecutive authorities                                  10-12

Section 5(a)(5)        Summary of instances where information was refused                           None

Section 5(a)(6)        List of audit reports by subject matter, showing dollar value of             17-19
                       questioned costs (including a separate category for the dollar value
                       of unsupported costs) and funds to be put to better use

Section 5(a)(7)        Summary of each particularly significant report                              None

Section 5(a)(8)        Statistical table showing number of audit reports and dollar value            18
                       of questioned costs

Section 5(a)(9)        Statistical table showing number of reports and dollar value of               19
                       recommendations that funds be put to better use

Section 5(a)(10)       Summary of each audit issued before this reporting period for                None
                       which no management decision was made by the end of the
                       reporting period

Section 5(a)(11)       Significant revised management decisions                                     None

Section 5(a)(12)       Significant management decisions with which the Inspector General            None
                       disagrees

*Refers to sections in the Inspector General Act of 1978, as amended.




                                                   20
           INSPECTOR GENERAL HOTLINE
          To report suspected fraud, waste or abuse:
                Call:    1 800 678 8868 or
                          1 202 295 1670
         Or write:         PO Box 3699
                        Washington DC 20027

       You can request that your identity be protected.

LSC employees are protected from reprisals by the Corporation.
Office of Inspector General
Legal Services Corporation
                    rd
3333 K Street, NW, 3 Floor
  Washington, DC 20007
